Audit of USAID/South Africa’s Monitoring of the
    Performance of Its HIV/AIDS Program


            Report No. 4-674-02-006-P
                 June 28, 2002




          PRETORIA, SOUTH AFRICA
 U.S. Agency for
  INTERNATIONAL
   DEVELOPMENT
   RIG/Pretoria


June 28, 2002

MEMORANDUM
FOR:              Mission Director, USAID/South Africa, Dirk W. Dijkerman,

FROM:             Regional Inspector General/Pretoria, Joseph Farinella /s/

SUBJECT: Audit of USAID/South Africa’s Monitoring of the Performance
         of Its HIV/AIDS Program - Audit Report No. 4-674-02-006-P

This memorandum is our report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report. We have included those
comments, in their entirety, as Appendix II to this report.

This report contains one recommendation. Based on your response describing
corrective actions begun, a management decision has been reached for
Recommendation No. 1. Please advise the Bureau for Management, Office of
Management Planning and Innovation, Management and Innovation Control
Division (M/MPI/MIC), when final action is complete.

I appreciate the cooperation and courtesy extended to my staff during the audit.
Table of
           Summary of Results                                              3
Contents
           Background                                                      4

           Audit Objectives                                                5

           Audit Findings                                                  6

              Did USAID/South Africa monitor performance of
              its HIV/AIDS program in accordance with
              Automated Directives System guidance?                        6

              Is USAID/South Africa achieving intended results from its
              HIV/AIDS program?                                            10

              What is the status of USAID/South Africa’s efforts to meet
              anticipated HIV/AIDS reporting requirements?                 14

           Management Comments and Our Evaluation                          17

           Appendix I - Scope and Methodology                              18

           Appendix II - Management Comments                               20

           Appendix III - Rapid Scale-Up and Intensive Focus Countries     23

           Appendix IV - Summary of USAID/South Africa’s Selected
                         Performance Monitoring Controls                   24
Summary of   This is one of a series of audits the Office of Inspector General is conducting
Results      worldwide of USAID's monitoring of the performance of its HIV/AIDS
             program. The audit's purpose was to determine (1) if USAID/South Africa was
             monitoring performance of its HIV/AIDS program in accordance with
             Automated Directives System (ADS) guidance; (2) if USAID/South Africa is
             achieving intended results from its HIV/AIDS program; and (3) the status of
             USAID/South Africa's efforts to meet anticipated HIV/AIDS reporting
             requirements.

             USAID/South Africa generally monitored performance of its HIV/AIDS
             program in accordance with USAID’s ADS guidance. For the three
             HIV/AIDS performance indicators tested, the Mission implemented seven of
             eleven required controls. Mission staff did not adequately implement four
             controls because of a lack of familiarity with the requirements. USAID/South
             Africa has issued a Mission Notice to implement two of the four controls. To
             address the remaining two controls and to ensure improved compliance with
             the ADS, we recommend that USAID/South Africa update its plan to include
             a description of the quality assessment procedures, and to provide a detailed
             description of the indicator. Based on the Mission's description of the
             corrective actions it has begun, we consider that management decision has been
             reached for the recommendation. (See pages 6-9.)

             USAID/South Africa generally achieved intended results from its HIV/AIDS
             program. The Mission achieved its intended results for two of the three
             HIV/AIDS performance indicators tested—condom availability and access to
             HIV counseling. The Mission did not achieve its target for the third indicator—
             access to HIV testing—because of circumstances beyond its control. The
             Mission has subsequently revised the targets for that indicator to more
             reasonably match expectations and it continues efforts to improve program
             performance in that area. (See pages 10-13.)

             USAID/South Africa is preparing to meet anticipated HIV/AIDS reporting
             requirements presented in USAID’s draft Monitoring and Evaluation guidance.
             Mission staff is considering potential data sources and is working to transition its
             partners to the use of standard performance indicators. Additionally, the pending
             revision and extension of the strategic objective for the health sector could
             provide the Mission with a timely opportunity to restructure its HIV/AIDS
             program to meet final reporting requirements when issued. However, the
             Mission's collection and reporting of certain data mentioned in the draft
             guidance from sources the Mission is currently contemplating might present
             significant challenges. (See pages 14-16.)




                                                                                               4
Background   USAID funding for HIV/AIDS has increased over the past three years – from
             $142 million in fiscal year 1999 to over $300 million in fiscal year 2001.
             USAID is organizing its response to HIV/AIDS around three categories of
             countries: rapid scale-up, intensive focus, and basic. (See Appendix III for a
             more complete description of these categories). These categories were
             developed based on 1) the amount of resources that USAID intends to apply and
             2) expectations as to when a measurable impact might be achieved. For
             example, USAID defines intensive focus countries as those in which resources
             will be increased and targeted to reduce prevalence rates (or keep prevalence low
             in low-prevalence countries), to reduce HIV transmission from mother to infant,
             and to increase support services for people (including children) living with and
             affected by AIDS within three to five years. South Africa, a country of 43.5
             million people, is one of the 13 intensive focus countries.

             The following table details USAID/South Africa's HIV/AIDS funding in
             recent years:

                         Table of USAID/South Africa's Total Funding
                            for HIV/AIDS in Fiscal Years 1999-2001
                                     (millions of dollars)1
                                    Bilateral         Field
                        Fiscal      Program         Support       Total
                        Year        Funding         Funding      Funding
                        1999                $1.5            $1.4      $2.9
                        2000                  2.2            3.5        5.7
                        2001                  6.3            3.1        9.4


             One of the Government of South Africa's priorities since 1994, the beginning
             of the post-Apartheid period, has been to correct past inequities—when 80
             percent of the country's resources benefited 20 percent of the population. It is
             in this context of massive systemic transformations that the HIV/AIDS
             epidemic in South Africa materialized. The magnitude and severity of the
             epidemic in South Africa caught the Government by surprise and it
             exacerbated problems with an already inadequate and under-funded public
             health care system. In 1993-1994, the Government estimated that only "a few
             hundred" cases of HIV were present in South Africa. By 2000, the estimated
             number of South Africa's HIV infected was close to 4 million, which made it
             the country with the largest number of people living with HIV/AIDS, as well
             as a country with one of the world's fastest growing epidemics. A direct result
             of the epidemic has been a slowing down of the Government's expansion of
             equitable primary health care and an increased focus on HIV/AIDS.

             1
                 USAID/South Africa provided the data, which were not audited.


                                                                                            5
                   USAID/South Africa's integrated health strategic objective has similarly
                   undergone a shift due to the epidemic. This strategic objective now consists
                   of two major program elements: (1) sustainable development and
                   transformation and, more recently, (2) HIV/AIDS epidemic response. The
                   initial years of the program saw the establishment of the EQUITY Project
                   activity, the solidifying of partnerships at national, provincial and district
                   government levels, and the beginning of the response to the HIV/AIDS
                   epidemic. During this time, the program focus remained primarily within the
                   country's Eastern Cape Province, but some national expansion began a year
                   earlier than anticipated. Currently, there are plans to expand activities to the
                   national level and the other eight provinces. In fiscal year 2003, HIV/AIDS
                   activities will expand to four provinces (Eastern Cape, Mpumalanga, North
                   West Province and KwaZulu-Natal), covering approximately 51 percent of the
                   country's population. Additionally, the program is increasing support to
                   national non-governmental organizations and community-based organizations
                   to further address the consequences of the HIV/AIDS epidemic. In FY 2003,
                   the Mission plans to design a new multi-year HIV/AIDS and primary health
                   care program to ensure uninterrupted support to the South African
                   government's health program through the end of the decade.



Audit Objectives   This is one of a series of audits the Office of Inspector General is conducting
                   worldwide of USAID’s monitoring of the performance of its HIV/AIDS
                   program. The audit's objectives, scope, and methodology were developed by the
                   Office of Inspector General's Performance Audits Division in coordination with
                   USAID’s HIV/AIDS Division in the Bureau for Global Programs, Field Support
                   and Research. RIG/Pretoria performed this audit in South Africa to review
                   USAID/South Africa’s HIV/AIDS program and, specifically, to answer the
                   following audit objectives:

                   •   Did USAID/South Africa monitor performance of its HIV/AIDS program
                       in accordance with Automated Directives System guidance?

                   •   Is USAID/South Africa achieving intended results from its HIV/AIDS
                       program?

                   •   What is the status of USAID/South Africa’s efforts to meet anticipated
                       HIV/AIDS reporting requirements?

                   Appendix I describes the audit’s scope and methodology.




                                                                                                  6
Audit Findings   Did USAID/South Africa monitor performance of its HIV/AIDS program
                 in accordance with Automated Directives System guidance?

                 USAID/South Africa generally monitored performance of its HIV/AIDS
                 program in accordance with USAID’s Automated Directives System (ADS)
                 guidance. For three HIV/AIDS performance indicators tested (condom
                 availability, access to HIV counseling, and access to HIV testing), the Mission
                 implemented seven of eleven required controls:

                 •   data sources identified;
                 •   data collection method described;
                 •   data collection schedule specified;
                 •   responsibility assigned;
                 •   baseline established;
                 •   data agreed to source; and
                 •   other monitoring tools were used.

                 However, the Mission’s performance monitoring plan did not include four
                 other required controls:

                 •   evidence of data quality assessments;
                 •   disclosure of known data limitations;
                 •   description of the procedures for assessing data quality; and
                 •   detailed description of the performance indicator, access to HIV
                     counseling.

                 The following is a discussion of the four controls not included in the
                 performance monitoring plan. (Appendix IV provides a summary of the
                 eleven controls).

                 Data Quality Assessments
                 Must Be Performed

                 ADS 203.3.6.6 requires that for each indicator reported in the Results Review
                 and Resource Request (R4) performance data tables, data quality must be
                 reassessed as needed, but no less than once every three years. The ADS
                 further states that when conducting data quality assessments, operating units
                 must (a) verify and validate performance information to ensure that data are of
                 reasonable quality; (b) review data collection, maintenance, and processing
                 procedures to ensure that they are consistently applied and continue to be
                 adequate; (c) document the assessment in the “Comment” section of the
                 appropriate R4 performance data table; and (d) retain documentation of the
                 assessment in the performance management files.


                                                                                               7
USAID/South Africa could not provide evidence that data quality assessments
were performed for the three indicators. According to one Mission staff
member, Mission staff conducted the assessments, but were unaware that
there was a requirement to document them. Without such documentation, the
Mission could not support assertions that the data used was sufficiently
accurate and consistent to meet USAID’s indicator quality requirements.

This weakness was reported in the Office of Inspector General's "Audit of
USAID/South Africa’s Performance Monitoring for Selected Indicators
Appearing in the FY 2003 Results Review and Resource Request Report."2
The audit report recommended that the Mission establish a procedure
requiring independent reviews to verify the accuracy of all data presented in
the Mission's R4 reports.

In response to the recommendation, USAID/South Africa issued Mission
Notice 2001-168, which contains procedures to ensure the accuracy of all data
reported in the R4 report. The Mission Notice assigns the Mission's Program
Office the responsibility for reviewing and independently verifying the
accuracy of data for the R4 or its successor document. In addition, the
Program Office will serve as a repository for data source documents for all
performance data reported in the R4. Since the implementation of this
Mission Notice adequately addresses this finding, a recommendation is not
necessary.

Data Limitations
Must Be Disclosed

ADS 201.3.4.13 requires that performance monitoring plans must describe the
known data limitations, discuss the significance of the limitations for judging
the extent to which goals have been achieved, and describe completed or
planned actions to address these limitations.

The Mission’s performance monitoring plan did not disclose any known data
limitations reported by the EQUITY Project, which is the source of data for
the HIV/AIDS performance indicators. For example, the Equity Project's
survey report, “Primary Health Care in the Eastern Cape Province 1997-
2000,” disclosed the data limitation that "facility surveys have often sampled
different clinics, and data from routine information systems or special studies
may not be entirely comparable to facility survey data." Furthermore, the
survey report states that "where differences are small, caution is required in
attributing significance to them." However, these limitations were not
included in the Mission's performance monitoring plan.


2
    Audit Report No. 4-674-02-001-P, issued on November 9, 2001.


                                                                                  8
Such data limitation should have been disclosed in the plan. Its omission
could impair understanding of the results presented because the reliability of
data presented could be incorrectly assumed. A Mission staff member
suggested that she knew about the data's limitations, but prior to the fiscal
year 2003 R4 audit, she did not know about the requirement to include such
limitations in the performance monitoring plan.

Similar to the data quality assessment issue discussed above, this finding was
also reported in that same audit report. Mission Notice 2001-168 addresses
this finding by reinforcing the message that Mission strategic objective teams
are responsible for such disclosures in performance monitoring plans. Since
the implementation of this Mission Notice adequately addresses this finding, a
recommendation is not necessary.

Plan Must Include a Description of
Data Quality Assessment Procedures

ADS 201.3.4.13 requires that performance monitoring plans describe the
quality assessment procedures that will be used to verify and validate the
measured values of actual performance. Furthermore, it states that strategic
objective teams should review and update their performance monitoring plans
at least annually as part of the portfolio review and R4 preparation.

The Mission’s performance monitoring plan did not include a description of
the quality assessment procedures. Also, the Mission did not revise the plan
to include such procedures when the Mission performed its most recent annual
portfolio review and R4 preparation.

The fact that the new requirement was not added to the ADS until August
2000 and implementation was not required until June 1, 2001 was part of the
reason why the staff did not describe assessment procedures. A Mission staff
member confirmed that Mission staff were generally unaware of the
requirement to describe assessment procedures, as it was so new at the time.

Without set procedures to follow in conducting data quality assessments,
Mission personnel could report incomplete, inaccurate, and inconsistent
performance data in the R4. This could consequently compromise the
validity, reliability, timeliness, precision, and integrity of the performance
data. The recommendation for this finding is combined with the
recommendation for the following finding, and is found on page 9.




                                                                                 9
Performance Indicators
Must Be Described in Detail

ADS 201.3.4.13 requires that performance monitoring plans provide a detailed
description of the performance indicators to be tracked. ADS 203.3.6.5 states
that an indicator should be unambiguous about what is being measured, and
what data are being collected. In addition, it states that performance
indicators should be consistent and comparable over time and in different
settings. According to TIPS No. 7, the indicator's definition should be
detailed enough to ensure that different people at different times, given the
task of collecting data for a given indicator, would collect identical types of
data.

The Mission’s performance monitoring plan did not describe the indicator,
access to HIV counseling, in detail, because it did not clearly describe the
exact measurement. The plan describes the indicator as the percentage of
clinics where HIV counseling is available and accessible and is provided by
trained staff. This description does not define what constitutes "available."

The data source used presented two measurements, which were very similar.
One involved clinics where HIV counseling was available at least one day per
week. The second involved clinics where it was available at least five or more
days per week. Since the performance monitoring plan's indicator was not
specific, with regard to the number of days per week, Mission staff in future
years could present the data inconsistently—using the one day per week data
one year, and the five days per week data another year.

A Mission staff member claimed that it was not clear to her as to how specific
the description of an indicator should be. She added that she felt there was
little danger of confusion with regard to which measurement to use because of
her familiarity with the indicator and because personnel turnover at the
Mission has been infrequent.

Based on the findings concerning descriptions of data quality assessment
procedures and specificity in describing indicators, and to ensure
USAID/South Africa’s performance monitoring is more fully compliant with
ADS 201 and ADS 203, we are making the following recommendation:


       Recommendation No. 1: We recommend that USAID/South
       Africa update its performance monitoring plan to include a
       description of the quality assessment procedures, and to
       provide a detailed description of the indicator, access to
       HIV counseling.


                                                                                10
Is USAID/South Africa achieving intended results from its HIV/AIDS
program?

USAID/South Africa generally achieved intended results from its HIV/AIDS
program. To measure the performance of its HIV/AIDS program in fiscal year
2000, the Mission used the performance indicators, 1) condom availability,
2) access to HIV counseling, and 3) access to HIV testing. The Mission
achieved its intended results for condom availability and access to HIV
counseling, but it missed its goal for access to HIV testing. These three areas are
discussed below.

Condom Availability

The Government Performance and Results Act requires agencies to set
performance goals to support results-oriented management. Office of
Management and Budget Circular A-123 requires that federal managers use
management controls, such as performance goals, to reasonably ensure that
programs achieve their intended results.

The Mission's condom availability indicator measures the percent of the 677
Eastern Cape Province clinics that have condoms easily available. The
Mission had planned to achieve a level of 70 percent. It exceeded this goal.
The Mission used a statistical survey conducted by District Health
Information Officers, under the guidance of the EQUITY Project, that
sampled 91 Province clinics and projected that 85 percent of the Province's
clinics had condoms readily available.

The Mission achieved this result by working with its primary partner, the
EQUITY Project, to increase the availability of and easy access to condoms in
primary health care clinics in South Africa's Eastern Cape Province. This
partnership's efforts have included activities such as assistance to the Eastern
Cape Province Department of Health for the purchase and installation of
approximately 1,600 "condocans." These colorful condom dispensers
(pictured below) have dramatically increased the accessibility and availability
of condoms in primary health care facilities in the province.




                                                                                 11
Photograph of a "Condocan" – EQUITY Project's purchase and installation of these condom
distribution bins directly supports the Mission's intended result - condom availability.
(February 2002)

The Mission also supported activities to encourage condom use. These
information, education and communication activities included the publication
of Ubomi Living, a newsletter, which features stories about HIV-infected
people. Ubomi Living also contains practical information about topics such as
living with HIV and the value of prevention methods such as using condoms.




                                           Photograph of a copy of Ubomi Living
                                           obtained at an Eastern Cape Province
                                           primary health care facility. This
                                           EQUITY Project-sponsored publication
                                           contains practical information about topics
                                           such as living with HIV and the value of
                                           prevention methods such as the use of
                                           condoms. (February 2002)




                                                                                         12
Access to HIV Counseling

The Government Performance and Results Act requires agencies to set
performance goals to support results-oriented management. Also, Office of
Management and Budget Circular A-123 requires that federal managers use
management controls, such as performance goals, to reasonably ensure that
programs achieve their intended results.

The Mission's access to HIV counseling indicator measures the percent of the
Eastern Cape Province's 677 clinics that routinely have HIV counseling
available five or more days per week. The Mission had planned to achieve a
level of 85 percent. It exceeded this goal. USAID/South Africa used a
statistical survey conducted by District Health Information Officers, under the
guidance of the EQUITY Project, which sampled 91 Province clinics. The
survey projected that 89 percent of the Province's clinics had HIV counseling
available at least five days per week in fiscal year 2000.

To achieve this result, USAID/South Africa, through its partner, the EQUITY
Project, conducted activities such as counselor training. The EQUITY Project
also provided assistance to the Province in developing plans for counselor
mentoring and provided clinic counselors with informational materials to
assist them in doing their jobs.

Access to HIV Testing

As with the two intended results mentioned above, the Government
Performance and Results Act and Office of Management and Budget Circular
A-123 require that federal managers use management controls, such as
performance goals, to achieve results-oriented management. Also,
ADS 201.3.6.2 states that USAID may be just one of several entities
contributing to the achievement of intended results. ADS 201.3.6.2 further
states it is vital to consider whether or not non-USAID activities, such as those
of a host government, are likely to occur and how this could impact intended
results.

The Mission's access to HIV testing indicator measures the percent of Eastern
Cape Province's 677 clinics that routinely have HIV testing available. The
Mission's target was 60 percent. To assess results, USAID/South Africa used a
statistical survey conducted by District Health Information Officers, under the
guidance of the EQUITY Project, which sampled 91 Province clinics. The
survey showed that only 43 percent of the Province's clinics offered the testing in
fiscal year 2000. Therefore, the Mission did not achieve its 60 percent target.

This occurred because HIV/AIDS testing at the clinic level proved to be more
difficult to implement than the Mission had previously anticipated. Also, the


                                                                                13
shortfall was due to continued weakness in the South African Government's
procurement and distribution of HIV test kits. Additional shortfalls could
result if the South African Government continues to fail to procure an
adequate number of HIV test kits and if other HIV/AIDS programs are
expanded. The Government of South Africa plays a large role in influencing
the availability of HIV testing at its clinics, much of which is beyond
USAID/South Africa's control.

As a result, USAID/South Africa considered the effects of Government of
South Africa's influence on the performance results and modified its targets
for access to HIV testing to more reasonably project likely results. Also, to
improve performance results, the Mission continues to provide assistance to
the Eastern Cape Department of Health in developing a budget for HIV/AIDS
activities and assists districts in improving logistics systems.




Photograph of inventory cards, designed by the EQUITY Project, which assist a primary health
care clinic near East London to ensure that drugs and other medical supplies, such as HIV test
kits, are kept in stock. (February 2002)

Overall, USAID/South Africa generally achieved intended results from its
HIV/AIDS program. Of three indicators tested, USAID/South Africa achieved
its targets for two indicators used to monitor its HIV/AIDS program ― condom
availability and access to HIV counseling. The Mission did not achieve its target
for the indicator, access to HIV testing. As stated above, circumstances beyond
the Mission’s control contributed to that result, but the Mission responded
appropriately by modifying its targets and it continues to provide technical
guidance to the host country government.



                                                                                           14
What is the status of USAID/South Africa’s efforts to meet anticipated
HIV/AIDS reporting requirements?

USAID/South Africa is preparing to meet anticipated HIV/AIDS reporting
requirements presented in USAID’s draft Monitoring and Evaluation guidance.
Mission staff is considering potential data sources and is working to transition its
partners to the use of standard performance indicators. Additionally, the pending
revision and extension of the strategic objective for the health sector could
provide the Mission with a timely opportunity to restructure its HIV/AIDS
program to fit the final reporting requirements, once the final guidance is issued.
However, the Mission's collection and reporting of certain data mentioned in the
draft guidance from sources the Mission is currently contemplating might
present significant challenges.

To improve the monitoring process for its HIV/AIDS program, USAID's Office
of Health and Nutrition has drafted “USAID’s Expanded Response to the
Global HIV/AIDS Pandemic" dated February 28, 2001. At the time of our audit
testing, the guidance had not been finalized.

The guidance identifies countries receiving additional funding for their
HIV/AIDS programs and presents anticipated reporting requirements. The
guidance identifies South Africa, as an "intensive focus country," and indicates
that USAID/South Africa would be required to collect and report information at
three levels.

At the first level, USAID/South Africa would be required, by 2007, to develop a
national sentinel surveillance system to report annually on HIV incidence rates.
This system should measure the overall effect of national HIV/AIDS prevention
and mitigation programs on the pandemic. The standard indicator for this
measurement will be HIV prevalence rates for 15- to 24-year-olds.

South Africa's Department of Health has gathered national prevalence data since
1990. The Department publishes this data in annual reports and USAID/South
Africa has access to these reports. These reports provide the data, which
USAID/South Africa plans to use to satisfy the guidance's reporting requirement
on national HIV/AIDS prevalence.

However, the use of the Department of Health's data could pose problems. The
Department gathers and distributes the prevalence data, not USAID.
Consequently, USAID/South Africa can not control the timeliness of its receipt
of the data and can not ensure its timely submission of the data to Washington.

The second level would require that standardized national sexual behavior
surveys be conducted every three to five years, beginning in 2001. The standard
indicators include “number of sexual partners” and “condom use with last non-
regular partner.” Since USAID/South Africa does not collect this information on

                                                                                 15
a national level, Mission staff suggested that they could use data from the
Demographic and Health Survey's national health survey reports, primarily
funded by the Department of Health. According to Mission staff, the two
standard indicators anticipated by the guidance are typically included in such
surveys.

As the data from these survey reports are the Department's, USAID/South Africa
can not control the frequency and timeliness of the data's release. When our
audit fieldwork began, the "South Africa Demographic and Health Survey 1998"
was the most recent survey report and it was still in preliminary form. Only one
of the two standard indicators, condom use, was included in that survey report.
Accordingly, it is uncertain whether or not USAID/South Africa will be able to
obtain and report all of the data required for this level, given the infrequent and
incomplete nature of this source.

At the third level, USAID/South Africa would be required to report annually
on their progress toward implementing their HIV/AIDS program and
increasing the proportion of the target population covered by the program.
USAID’s draft guidance lists seven standard indicators that missions might
use to measure progress in selected program areas.

While USAID/South Africa is not presently using any of the seven standard
indicators exactly as they were presented in the guidance, some of the Mission's
partners have already begun using indicators, which are similar to the standard
indicators. Mission staff have been working with the partners to convey the
value of data collection and the use of standard indicators.

Additionally, Mission staff indicated that their agreement with their primary
HIV/AIDS program partner will expire at the end of fiscal year 2003. A Mission
official noted that this event will provide an excellent opportunity to restructure
USAID/South Africa's HIV/AIDS program to provide data required by the draft
guidance, assuming the final guidance has been issued.

One challenge that the Mission faces is that the standard indicators do not, in
every case, match well with USAID/South Africa's HIV/AIDS program. For
example, with respect to condom distribution, the guidance's standard indicator
pertains to the social marketing of condoms. USAID/South Africa is no longer
involved with condom social marketing, because such an activity was not found
to be a cost effective approach in a country where the Government makes
condoms available for free. Instead, the Mission is working to improve the
Government's program by increasing the availability of and easy access to
condoms.

In summary, USAID/South Africa is preparing to meet anticipated HIV/AIDS
reporting requirements. Mission staff is considering potential data sources and is


                                                                                 16
working to transition its partners to the use of standard performance indicators.
Additionally, the pending revision and extension of the strategic objective for the
health sector could provide the Mission with a timely opportunity to restructure
its HIV/AIDS program to fit the final reporting requirements. However,
knowing the content of the draft USAID guidance, the Mission is aware of the
future challenges in collecting and reporting certain data.




                                                                                17
Management       USAID/South Africa concurred with the recommendation that the Mission
Comments and     update its performance monitoring plan to include a description of the quality
Our Evaluation   assessment procedures, and to provide a detailed description of the indicator,
                 access to HIV counseling.

                 In its response, the Mission advised RIG/Pretoria of actions taken to address the
                 recommendation. The Mission's performance indicator, access to HIV
                 counseling, has been modified and the Mission plans to include future data
                 quality assessment procedures in its performance monitoring plan. The Mission
                 also plans to undertake an independent assessment to verify and validate
                 performance data and to review data collection and processing procedures, for
                 adequacy and consistency.

                 Furthermore, the Mission included points for clarification of the report; we have
                 modified the text as deemed appropriate.

                 Based on the Mission's description of the corrective actions it has begun, we
                 consider that management decision has been reached for the recommendation.




                                                                                                  18
                                                                                  Appendix I


              Scope
Scope and
Methodology   Regional Inspector General in Pretoria, South Africa, conducted this audit in
              accordance with generally accepted government auditing standards. The
              purpose of the audit was to determine (1) if USAID/South Africa was
              monitoring performance of its HIV/AIDS program in accordance with the
              Automated Directives System guidance; (2) if USAID/South Africa is
              achieving intended results from its HIV/AIDS program; and (3) the status of
              USAID/South Africa’s efforts to meet anticipated HIV/AIDS reporting
              requirements.

              We collaborated with the Mission in selecting the three most meaningful
              performance indicators used to monitor the HIV/AIDS program in fiscal year
              2000 for our review. Three indicators at the intermediate results level were
              selected.

              1. Percent of clinics where HIV counseling is available and accessible and is
                 provided by trained staff (Access to HIV Counseling)
              2. Percent of clinics in the Eastern Cape that routinely have HIV testing
                 available (Access to HIV Testing)
              3. Percent of Clinics that have condoms easily available (Condom Availability)

              To determine whether the mission achieved intended results, we tested the
              Mission's HIV/AIDS program results for fiscal year 2000. In addition, for one
              indicator, we used performance data prior to fiscal year 2000 for comparison
              purposes. In evaluating for intended results, we recognized that in many cases
              other entities—as well as the host country—also participated in achieving these
              results. Fieldwork was conducted at USAID/South Africa and at primary health
              care clinics in East London and Port Elizabeth, South Africa, from January 14 to
              April 11, 2002.

              Our review of management controls focused on USAID/South Africa’s
              performance monitoring plan and how well the Mission complied with
              USAID, Office of Management and Budget, and General Accounting Office
              policies and guidance.

              Methodology

              To answer the first audit objective, we tested eleven selected controls, which
              are contained in ADS 203 and 201, used to monitor performance progress.
              We reviewed the Mission’s performance monitoring plan and tested it against
              seven controls. We also determined whether data quality assessments were
              completed, baselines were established, and data agreed to source documents.



                                                                                             19
We also obtained information as to what other methods for monitoring
HIV/AIDS program performance were being used by the Mission.

To answer the second objective, we analyzed planned and actual performance
data for the indicators we selected for review. We also reviewed baseline data
and targets and compared actual data to targets, which the Mission had set.
Actual data were traced to source documents. However, due to time
constraints, we did not trace the source documents to the original documents.

To answer the third objective, we used USAID's “Handbook of Indicators for
HIV/AIDS/STI Programs,” and “USAID’s Expanded Response to the Global
HIV/AIDS Pandemic, Monitoring & Evaluation Guidance” (draft dated
February 2001), to ascertain the status of the Mission's implementation of this
guidance. We acknowledged and analyzed USAID’s Administrator's
March 12, 2002 cable about "New HIV/AIDS Monitoring and Reporting
System." Since we deemed it was not the definitive guidance, we did not use
it to answer the third audit objective.

In addition, we reviewed applicable federal and USAID regulations and
guidance; interviewed Mission officials and reviewed Mission documents;
interviewed project officials and reviewed project documents; interviewed
program recipients; and visited program sites.

In assessing accuracy, we used two materiality thresholds: (1) for transcription,
we used an accuracy threshold of plus or minus one percent and (2) for
computation, we used an accuracy threshold of plus or minus five percent.




                                                                                20
                                                                                           Appendix II


Management
Comments


             Memorandum


             To:     Regional Inspector General/ Pretoria, Joseph Farinella

             From: USAID/SA Mission Director, Dirk Dijkerman /s/

             Date: June 22, 2002

             Re:     Audit of USAID'S HIV/AIDS Program - Audit report No. 4-674-02-XXX-P




             This is to advise receipt of the draft audit report dated May 22, 2002, which summarises the
             results of the Mission's HIV/AIDS Audit. The recommendation made in the audit report is
             as follows:

                   "Recommendation No.1: We recommend that USAID South Africa update its
                   Performance Monitoring Plan to include a description of the data quality
                   assessment procedures and to provide a detailed description of the indicator,
                   access to HIV counseling."

             The Mission concurs with the recommendation and is pleased to report that the
             Performance Monitoring Plan has been updated to include future data quality assessment
             procedures. The plan is to undertake an independent assessment to verify and validate
             performance data and to review data collection and processing procedures, for adequacy
             and consistency.
             The recommendation also required the Mission to provide a detailed description of the
             indicator, access to HIV counseling. We have redefined the indicator in a more detailed
             manner as: "The percentage of clinics that offer HIV counseling 5 days a week provided
             by trained staff." The indicator definition has been reviewed by the Team Leader of the
             Health SO team and by the Mission Program Monitoring and Evaluation Specialist and is
             deemed to be adequate.

             The Mission realizes the importance of documenting data quality assessments and has
             already begun documenting such assessments undertaken by a designated Health Team
             member, subsequent to the 2000 R4 (see memo attached). The memo outlines the process
             and findings of the data quality assessment exercise, undertaken by reviewing the data
             collection, maintenance and processing procedures used by the primary partner. Future
             data quality assessment procedures are outlined in the memo. The memo forms part of the
             documentation retained in the performance management files by the Health SO team.




                                                                                                       21
The Mission requests that the wording that reads; "the pending renewal of the agreement
with the primary HIV/AIDS contractor", in Pages 3 and 13 of the draft report, be clarified
as "the pending revision and extension of the Strategic Objective for the Health Sector".
The revised Health Strategic Objective will run through 2006 to be consistent with the
Mission's current approved strategic plan. As part of this update, we will revise the
HIV/AIDS indicators to reflect the latest guidance from USAID/Washington on appropriate
HIV/AIDS indicators.
We further request that the first paragraph on page 5 in the background section be modified
by deleting reference to the three time periods and their associated dates.
Based on these actions, the Mission requests closure on the recommendation. We would
like to take this opportunity to commend the professional and cooperative manner in which
your staff conducted the audit.




                                                                                         22
                                                                                Memorandum
United States
Agency for
International
Development


                DATE:       16 November 2001

                TO:         EQUITY Project File

                FROM:       Anita Sampson, EQUITY Activity Manager /s/

                SUBJECT: Assessment of the Data Quality from the Annual Facility Survey

   On 25 October 2001, I reviewed the data quality of the Annual Survey done by the EQUITY
   project (purple report) based on a recommendation from the August audit of the condom
   availability indicator. The discussion with MSH reviewed of the data quality by looking at the
   methods and procedures used by the EQUITY Project team in the collection of the data and in data-
   entry for the Annual Survey. This was a good time to bring this topic up because the fieldwork for
   the 2001 survey is scheduled to begin later this month. The operational definitions of the indicators
   were reviewed and we discussed the need to be consistent with USAID's indicator definitions. The
   Annual survey is a cross-sectional observational survey using a structured questionnaire.


   During the interview, additional data is collected from the clinic monthly statistics
   collected by clinic staff. Record reviews are done for STDs, immunization, ANC, TB and
   minor aliment registers or from patients records/files in clinics where there are no
   registers. Fieldwork is normally done from late October through November/December
   each year by the DOH health information mangers. In reviewing the instrument, we felt
   that the questionnaire is a reliable method of collecting data. The language in the
   interview questionnaire is simple and straightforward and can be easily understood by
   both interviewers and respondents. In each of the 21 health, districts of the Eastern Cape
   clinics are selected at random by computer generated random numbers. In districts where
   there are both urban and rural clinics, proportional random sampling is used so that both
   types of setting are represented. There is no statistical quantification for the choice of
   sample size of four clinics per district and no effort made to weigh results either by
   number of clinics or population per district. Once the clinics are selected, they will be
   used each year for the survey. The sample size will increase each year to eventually
   include all clinics. Thus, this survey is consistent and free from any deliberate selection.

   During the meeting, we discussed the need for an independent assessment of data quality
   of the Annual survey with the MSH team. The suggestion was to use the MEASURE
   Project based at the University of North Carolina (a centrally funded buy-in program) to
   perform an assessment on the Annual survey data to assure its quality. I plan to schedule
   this assessment in the calendar year 2002 probably by July 2002. MSH had no objections
   to this suggestion and it was agreed that we would pursue this mechanism.




                                                                                                     23
                                                                                            Appendix III


Rapid Scale-Up
and Intensive
Focus Countries
 •   Rapid Scale-Up Countries are defined as countries that will receive a significant increase in
     resources to achieve measurable impact within one to two years. This will result in an extremely
     rapid scaling-up of prevention programs and enhancement of care and support activities. Rapid
     Scale-Up countries include:

                Cambodia               Kenya          Uganda                 Zambia

 •   Intensive Focus Countries are defined as countries in which resources will be increased and
     targeted to reduce prevalence rates (or keep prevalence low in low-prevalence countries), to
     reduce HIV transmission from mother to infant, and to increase support services for people
     (including children) living with and affected by AIDS within three to five years. Intensive Focus
     Countries include:

                Ethiopia                       Nigeria                       Brazil
                Ghana                          Rwanda                        India
                Malawi                         Senegal                       Russia
                Mozambique                     South Africa
                Namibia                        Tanzania

 •   Basic Countries are defined as countries in which USAID will support host country efforts to
     control the pandemic. USAID programs will continue to provide assistance, focusing on
     targeted interventions for populations who engage in high-risk behavior. In these countries,
     there will be an increased emphasis on maintaining credible surveillance systems in order to
     monitor HIV trends and allow timely warning of impending concentrated epidemics of HIV.
     In addition, USAID will assist country institutions to identify additional sources of funding to
     expand programming.




                                                                                                        24
                                                                                                                                                                 Appendix IV


                               Summary of USAID/South Africa’s Selected Performance Monitoring Controls

                                                  Performance Monitoring Plan
                      1.            2.           3.           4.            5.              6.            7.            8.            9.            10.               11.
                   Indicator      Data         Data         Data       Responsibility      Data         Quality    Data Quality    Baseline     Data Agrees     Other Means of
Indicator Number   Precisely     Sources     Collection   Collection     Assigned       Limitations   Assessment   Assessment     Established    to Source     Monitoring (If yes,
  and Indicator     Defined     Identified    Method      Schedule                       Disclosed    Procedures      Done                                       indicate type)
                                             Described    Specified                                   Described
     Name:
                                                                                                                                                              Yes – Evaluation
1. Condom                                                                                                                                                     Reports and
                     Yes           Yes          Yes          Yes            Yes             No           No            No            Yes           Yes
   Availability                                                                                                                                               Independent and
                                                                                                                                                              Technical Reviews
                                                                                                                                                              Yes – Evaluation
2. Access to HIV                                                                                                                                              Reports and
                     No            Yes          Yes          Yes            Yes             No           No            No            Yes           Yes
   Counseling                                                                                                                                                 Independent and
                                                                                                                                                              Technical Reviews
3. Access to HIV                                                                                                                                              Yes – Evaluation
   Testing                                                                                                                                                    Reports and
                     Yes           Yes          Yes          Yes            Yes             No           No            No            Yes           Yes
                                                                                                                                                              Independent and
                                                                                                                                                              Technical Reviews




                                                                                                                                                                             25
